        OFFICE OF INSPECTOR GENERAL

                                    Catalyst for Improving the Environment



Evaluation Report




        The Effectiveness of the Office of
        Children’s Health Protection
        Cannot Yet Be Determined
        Quantitatively

        Report No. 2004- P- 00016


        May 17, 2004
Report Contributors:                              Jerri Dorsey
                                                  Laurie Adams
                                                  Jeffrey Harris




Abbreviations

EPA          Environmental Protection Agency

OCHP         Office of Children’s Health Protection

OIG          Office of Inspector General

ORD          Office of Research and Development
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          May 17, 2004

MEMORANDUM

SUBJECT:             The Effectiveness of the Office of Children’s Health Protection Cannot Yet
                     Be Determined Quantitatively
                     Report No. 2004-P-00016


FROM:                Kwai Chan /s/
                     Assistant Inspector General for Program Evaluation

TO:                  Stephen Johnson
                     Acting Deputy Administrator

                    Bill Saunders
                    Acting Director, Office of Children’s Health Protection

This is a final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in the report will be made by
EPA managers in accordance with established resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days of the date of this report. You should include a corrective actions plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig/.

If you or your staff have any questions, please contact me at (202) 566-0827 or Jeffrey Harris,
Director for Program Evaluation, Cross-Media Issues, at (202) 566-0831.
          Executive Summary
Children are more vulnerable to environmental health hazards than the general
population. Recent Environmental Protection Agency (EPA) reports have
indicated that children face significant and unique threats from such hazards.
These hazards range from air pollution and lead-based paint in older homes to
treatment-resistant microbes in drinking water and industrial chemicals.
During this review, we therefore sought to determine:

•   What is EPA’s agenda for fostering children’s health and how does the Office
    of Children’s Health Protection (OCHP) ensure its achievement?

•   What are the impediments to OCHP ensuring the achievement of the
    Agency’s National Agenda to Protect Children’s Health From Environmental
    Threats?

•   How well does OCHP plan and coordinate children’s health activities within
    the Agency?

OCHP was established in 1997 to formalize and integrate EPA’s efforts on behalf
of children, to coordinate those efforts with other government agencies, and to
carry out Executive Order 13045 (“Protection of Children From Environmental
Health Risks and Safety Risks,” issued April 27, 1997) and implement the
Agency’s “National Agenda to Protect Children’s Health From Environmental
Threats,” announced September 1996. In 2002, EPA announced its Aging
Initiative to promote environmental health protection to older persons and named
OCHP as the Agency’s lead for that Initiative as well.

While OCHP is responsible for implementing the National Agenda, it is not
directly responsible for many of the goals outlined in the National Agenda.
OCHP’s mission is not a task that can be undertaken in isolation, and a full and
active partnership with stakeholders must be established and fostered. However,
we found that there was no overall, coordinated strategy integrating children’s
environmental health efforts into the Agency as a whole and no active
communication process in place among the program offices and OCHP. Further,
OCHP has not had a permanent Director since April 2002. Recognizing that
OCHP cannot implement the National Agenda without collaborating and
partnering with stakeholders, the lack of a permanent director could have a
negative impact on such efforts.

We found that OCHP has no formal mechanism in place to ensure performance
results or assess the relationships between program costs, activities, and results.
OCHP has a strategic planning process that includes an annual office planning


                                  i
meeting followed by a mid-year meeting to assess the status on the current year’s
plan and to begin consideration of potential focus areas for the following year.
However, despite these meetings, there is no formal tracking to ensure that goals
are met. More specifically, data and information systems are not available to
measure, analyze, and demonstrate overall performance specific to National
Agenda on a continuing basis.

We recommended that the Acting Deputy Administrator:

•   expedite the appointment of a permanent Director for OCHP,
•   establish an official children’s health contact within each media program
    office to improve coordination and communication, and
•   direct OCHP to make improvements to its annual planning process to include
    a methodology to set priorities to ensure resources are being allocated to those
    problems that pose the greatest environmental risks to children, as well as
    periodic meetings with the program offices.

The Agency concurred with most of our recommendations and positions, and
agreed to explore options for improving coordination within EPA and ways to
better measure progress and results. However, the Agency expressed concern that
the report did not recognize the role of OCHP and the accomplishments made to
protect the Nation’s children. We had noted in the report that many of EPA’s
program and regional offices have projects focused on children’s environmental
health protection; our concern was that OCHP’s role was not clear. Also, while
the Agency commented that it was not beneficial to define parameters for aging,
we believe it is necessary for the Agency to develop a clear and concise definition
of the target audience before it can take sufficient action on issues regarding that
audience. We summarized the comments and provided our evaluations at the end
of each chapter. The full text of EPA’s memorandum and comments are in
Appendix A, while additional attachments to that memorandum are available at
http://www.epa.gov.oig/.




                                  ii
                                     Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




 Chapters
          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1

          2         Impediments to OCHP Effectively Implementing the
                    National Agenda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             7

          3         Strengths, Weaknesses in OCHP Implementation
                    Efforts Noted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15




 Appendices
          A         Auditee’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19

          B         Offices Visited and Contacted . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    25

          C         Distribution           ...........................................                                         27




                                                                iii
                                         Chapter 1
                                         Introduction
Purpose

                The Office of Inspector General (OIG) initiated a review to determine how the
                Environmental Protection Agency (EPA) planned, prioritized, coordinated,
                implemented, and evaluated activities related to children’s health protection and
                the environment. This is the second in a series of planned reports1 on EPA
                children’s health activities. During this review, we sought to determine:

                •   What is EPA’s agenda for fostering children’s health and how does the Office
                    of Children’s Health Protection (OCHP) ensure its achievement?

                •   What are the impediments to OCHP ensuring the achievement of the
                    Agency’s National Agenda to Protect Children’s Health From Environmental
                    Threats?

                •   How well does OCHP plan and coordinate children’s health activities within
                    the Agency?

Background

                Children’s Unique Health Threats and Susceptibilities

                According to recent EPA reports, children face significant and unique threats
                from environmental hazards and industrial chemicals. These hazards range from
                air pollution and lead-based paint in older homes to treatment-resistant microbes
                in drinking water. It has been documented that children are more vulnerable to
                environmental hazards for many reasons. For example, “The EPA Children’s
                Environmental Health Yearbook” of June 1998 noted that:

                •   Children spend more time close to the ground and engage in more
                    hand-to-mouth activities; and

                •   In proportion to body weight, children breathe more air, drink more water, and
                    consume more food than adults, thus receiving higher doses of contaminants.

                Further, it has been documented that children are more susceptible because of the
                immaturity of their biochemical and physiological functions. For example, air
                pollutants that would produce only slight breathing difficulties in adults may



        1
          The first was Report Number 2003-M-000017, Selected Children’s Health Annual Performance Measures
for Goal 8, Sound Science, issued September 26, 2003.
contribute to a more serious breathing problem in young children because
children have smaller airways.

Evolution of National and EPA Children’s Health Policy

A 1993 National Academies’ of Science report, “Pesticides in the Diets of Infants
and Children,” noted that the Federal government needed to improve some of its
scientific and regulatory procedures to afford children greater protection from
possible adverse health effects of pesticides in their diets. On April 21, 1997, the
Presidential Executive Order 13045, “Protection of Children From Environmental
Health Risks and Safety Risks,” was issued directing Federal agencies to place a
high priority on protecting children from environmental and safety risks and
ensure that their policies, programs, activities, and standards address
disproportionate risks to children. Additionally, the executive order established
the President’s Task Force on Environmental Health Risks and Safety Risks to
Children. In October 2001, Executive Order 13229 was signed extending the
mandates of the original order, and the Task Force until April 2003. In April
2003, the original executive order was amended extending the Task Force for an
additional two years.

During the 1990s, EPA took steps to identify environmental risks unique to
children. An outline of key actions taken by EPA during the 1990s is in
Table 1.1.


               Table 1.1: Key Actions Taken by EPA

      1995: EPA Issued Agency-Wide Policy to ensure that EPA
      consistently and explicitly evaluates environmental health
      risks of infants and children.

          1996: EPA Announced National Agenda to Protect Children’s
          Health from Environmental Threats, in which the Agency called
          for a national commitment to ensure a healthy future for children.

               1997: Office of Children’s Health Protection Established
               by EPA to formalize and integrate the Agency’s efforts on behalf of
               children.

                     1998: Children’s Health Research Program Initiated by the
                     Office of Research and Development (ORD) to conduct research
                     and provide methods to reduce uncertainties in EPA risk
                     assessments for children.



These steps included the issuing of a report in 1996, “Environmental Health
Threats to Children,” that set an agenda for a national commitment to ensure a
healthy future for children. The National Agenda calls for the Agency to ensure
that all standards set by EPA protect children, there is a scientific research

                                   2
strategy that focuses on gaps related to children, new policies are developed as
needed, communities’ right to know is expanded, educational efforts are
expanded, and needed funding is provided.

Creation of OCHP

OCHP was established in 1997 to formalize and integrate the Agency’s efforts on
behalf of children, to coordinate those efforts with other government agencies, to
carry out Executive Order 13045, and to implement the Agency’s Agenda.
OCHP’s original mission was to “make the protection of children’s health a
fundamental goal of public health and environmental protection in the United
States.” The mission statement was revised to incorporate the Aging Initiative
announced in 2002 (see Chapter 2). The current mission statement is to “make
the health protection of children and the aging a fundamental goal of public health
and environmental protection in the United States and around the world.”
OCHP’s overall goal is to ensure that every individual, community, organization,
corporation, and government agency understands the link between children’s
health and the environment and takes positive action to improve children’s
environmental health.

To accomplish its overall mission and goal, OCHP focuses its efforts on two
broad categories: (1) building infrastructure and capacity; and (2) “getting the
word out.”

   Building Infrastructure and Capacity: OCHP’s plans include investing
   efforts to institutionalize children’s environmental health protection within
   Federal agencies, States, and the private sector, as well as within EPA. Due to
   the small size of the office, OCHP considers EPA program offices and regions
   to be its partners, as well as external interest groups.

   “Getting the Word Out”: OCHP’s outreach plans include making
   communities, parents, care-givers, school systems, etc., aware of
   environmental risks to children and providing these groups with information
   and/or resources that might enable them to take their own future actions.

OCHP’s annual budget is approximately $6 million, which includes an estimated
$4 million in extramural resources (grants and contracts). The office as of our
review consisted of 14 staff members, divided into the following four speciality
area teams:




                                  3
                             Table 1.2: OCHP’s Four Specialty Area Teams

           Team            Description

           Outreach and    This team helps EPA program and regional offices identify and
           Partnerships    promote children’s health issues in public information, education, and
                           training, and to identify successful outreach efforts for use by others.

           Regulations,    This team conducts a retrospective review of EPA’s existing
           Economics,      standards to select standards that should be protective of children.
           Data
           Analysis

           Science         This team assesses current research science agenda and has
                           developed an integrated cross-Agency agenda of children’s
                           environmental health issues by working with ORD.

           Aging           In October of 2002, EPA’s Administrator announced the EPA Aging
           Initiative      Initiative. This team is charged to develop a national agenda for the
                           Agency in protecting the elderly from environmental health threats.
                           OCHP is currently acting as the lead office for this Initiative.




Internal Stakeholders

          According to the organizational proposal creating OCHP, their internal
          stakeholders include each of the media program offices at EPA, as well as the
          Agency’s research, administrative, and policy programs. The Office of
          Enforcement and Compliance Assurance, especially its Office of Environmental
          Justice, also plays a key role in implementing the goals and objectives of OCHP.
          At the front lines of the Agency’s efforts to protect children’s health are EPA’s
          regional offices. Each EPA region has a Children’s Health Coordinator whose
          primary role is to ensure that all regional programs consider children within their
          on-going work. During Fiscal Year 2001, the Agency’s budget for issues related
          to children’s health peaked at approximately $71 million. As shown in the
          following chart, the budget for children health protection activities declined to
          approximately $62 million in Fiscal Year 2003.




                                             4
      $




Scope and Methodology

          In determining how the Agency plans, prioritizes, implements, and coordinates
          children’s environmental health protection, we interviewed a number of Agency
          officials. We gathered information from OCHP and EPA program offices, as well
          as EPA Regional Children’s Health Coordinators, to determine activities planned
          and implemented regarding children’s environmental health protection, to identify
          the various roles, and to obtain documentation. We also interviewed outside
          stakeholders and representatives from other Federal agencies to document the
          Agency’s coordination efforts with these entities regarding children’s
          environmental health protection issues. A list of the offices visited and contacted
          is in Appendix B.

          We evaluated OCHP practices against criteria that the EPA OIG has adopted in
          assessing systems/organizations. The EPA OIG developed “Assessing
          Organizational Systems: A User’s Guide” (November 2002) as a tool in assessing
          organizations. This guide’s components are based on key program management
          practices consistent with the President’s Management Agenda, the Government
          Performance and Results Act, and the Office of Management and Budget’s efforts
          to assess effectiveness endorsed by the Agency.

          We performed our evaluation in accordance with Government Auditing
          Standards, issued by the Comptroller General of the United States. We
          performed our field work from November 18, 2002, through October 31, 2003.



                                           5
6
                                Chapter 2
  Impediments to OCHP Effectively Implementing the
                  National Agenda
          During our review, we identified several impediments to OCHP’s overall
          effectiveness. While OCHP is responsible for implementing the National
          Agenda, it is not directly responsible for many of the goals outlined in the
          Agency’s National Agenda. Additionally, according to OCHP, its mission is not
          a task that can be undertaken in isolation, and a full and active partnership with
          stakeholders must be established and fostered. However, we found that there was
          no overall, coordinated strategy and no active communication process in place
          among the program offices and OCHP. The Agency needs to develop a
          coordinated strategy with milestones and targets, establish a Children’s Health
          contact within each media program office, and aid in coordinating children’s
          health issues within the Agency.

          OCHP has not had a permanent Director since April 2002. Recognizing that
          OCHP cannot implement the National Agenda without collaborating and
          partnering with stakeholders, the lack of a permanent director could have a
          negative impact on such efforts. Further, EPA named the OCHP as the lead for
          the Agency’s Aging Initiative following the announcement of the Initiative in
          2002 which increased OCHP’s workload and areas of responsibility. The Agency
          needs to determine whether that Initiative should be lead by the same office
          responsible for children’s environmental health and if so, provide it with
          additional resources to adequately protect both populations.

EPA Lacks Overall Children’s Health Strategy

          OCHP is responsible for integrating the Agency’s efforts on behalf of children.
          According to OCHP, its mission is not a task that can be undertaken in isolation,
          and a full and active partnership with stakeholders must be established and
          fostered. While many EPA program and regional offices had projects focused on
          children’s environmental health, we found there was no overall, coordinated
          strategy to establish and foster a full and active partnership with stakeholders.

          While OCHP is responsible for implementing the National Agenda, it is not
          directly responsible for many of the goals outlined in the National Agenda.
          See table 2.1 that follows for further details.




                                           7
                        Table 2.1: National Agenda to Protect Children’s Health
                                      from Environmental Threats

                                Seven Steps of The National Agenda

          Ensure that all standards set by EPA are protective of any heightened risk faced by
          children;

          Develop a scientific research strategy focus on the gaps in knowledge regarding
          child-specific susceptibility and exposure to environmental pollutants;

          Develop new, comprehensive policies to address cumulative and simultaneous
          exposures faced by children;

          Expand community right to know allowing families to make informed choices
          concerning environmental exposures to their children;

          Provide parents with basic information so they can take individual responsibility for
          protecting their children from environmental health threats in homes, schools, and
          communities;

          Encourage and expand educational efforts with health care providers and
          environmental professionals so they can identify, prevent, and reduce
          environmental health threats to children; and

          Provide the necessary funding to address children’s environmental health as a top
          priority among relative health risks.



         For example, the National Agenda specifically states that the Agency is to ensure
         that all standards set by EPA are protective of any heightened risk faced by
         children; however OCHP does not set standards within EPA. Additionally,
         OCHP is not responsible for setting comprehensive policies to address cumulative
         and simultaneous exposures to children. While OCHP does not have direct
         control over many of the goals outlined in the National Agenda, we found the
         Agency has taken several steps towards meeting this Agenda. For example,
         ORD coordinated with OCHP as well as with other program offices to develop
         “The Strategy for Research on Environmental Risks to Children.”

Coordination Improvements Needed

         OCHP has taken actions to coordinate its efforts with EPA program offices and
         regions, but has not been consistent with program office coordination efforts.
         Because children’s environmental health efforts were not coordinated, there was
         inadequate assurance that limited resources were being used to the maximum
         extent possible to protect children from risk.

         Coordination Efforts with Program Offices Need Improvement

         OCHP has not been effective in coordinating and/or communicating with EPA’s
         media program offices. OCHP officials recognized that their role differs among

                                              8
program offices and their relationship with some program offices has not been as
strong or consistent as with others. We also found that OCHP does not conduct
standard annual meetings or monthly conference calls with EPA’s media program
offices like it does with the regions. Further, unlike the regions, the program
offices do not have designated children’s health coordinators.

We also found that OCHP is not a part of the program office’s annual or strategic
planning process, unless the program office requests their participation, and
OCHP officials indicated that usually does not occur. The program offices had
varying perceptions of the role and impact of OCHP. OCHP officials indicated
they had limited resources for labor intensive projects.

According to the organizational proposal creating OCHP, this office was to chair
an EPA Board on Children’s Environmental Health. The Board’s primary charge
was to ensure the integration of Agency activities effecting children and to serve
as a catalyst for actions that will be protective of children. Among its specific
responsibilities, the Board was to consider developing a comprehensive strategy
and action plan with milestones for Agency-wide activities related to protecting
children’s health. This Board was to include the Deputy Office Director level and
higher, including the Assistant Administrators from ORD and Office of
Prevention, Pesticides and Toxic Substances. We spoke with OCHP officials
about the status of this board and they advised us that the Board has not been
active since 2000.

Coordination Efforts with Regional Offices and ORD Beneficial

In contrast to the communication efforts with the Program Offices, we found that
OCHP communicates with the Agency’s regions through the use of Regional
Children’s Health Coordinators. These coordinators hold annual meetings and
conduct monthly conference calls with OCHP. These interactions provide the
opportunity for the regions and OCHP officials to discuss on-going relevant
issues and network amongst themselves, and facilitates coordination efforts and
information sharing. While it varied among regions, we found OCHP had input
in regional planning efforts related to children’s health activities. The Regional
Coordinators said that OCHP provides key areas of emphasis during their annual
meetings to be incorporated within the regions’ annual planning and strategic
processes. They also indicated that OCHP serves as a focal point at Headquarters
for children’s issues, and provides important information and funding.

In contrast to OCHP’s efforts with the media program offices, we found that ORD
has a process to coordinate with OCHP and program offices in planning EPA’s
children’s health research through the use of Research Coordination Teams for
each media office. These teams, which meet throughout the year, allow each
program office to be involved in the planning for research in their media area.



                                 9
Lack of A Permanent Director

          OCHP has not had a permanent Director since April 2002 – over 2 years.
          Recognizing that OCHP cannot implement the National Agenda without
          collaborating and partnering with stakeholders, the lack of a permanent director
          could have a negative impact on such efforts. Various EPA regional coordinators,
          the former OCHP Director, the Chair of the Children’s Health Protection
          Advisory Committee, and the Director of the Children’s Environmental Health
          Network (a national children’s environmental health advocate) expressed concern
          that the lack of a permanent Director may have a negative impact on the longevity
          and importance of the children’s environmental health program within EPA.
          Specifically, the Director of the Children’s Environmental Health Network said
          that it is difficult to view EPA as having a unified children’s health program
          without the presence of a permanent Director. Additionally, the Children’s
          Health Protection Advisory Committee, in a memo to the Administrator dated
          December 16, 2002, wrote that OCHP could not continue to play a key role
          within EPA, and across the nation without permanent leadership.

          It is imperative that all internal and external stakeholders know that children’s
          health protection is a priority within EPA. The Administrator responded to the
          Children’s Health Protection Advisory Committee on May 2, 2003, that selecting
          a permanent director for OCHP was a high priority for EPA. OCHP officials
          indicated an announcement for the Director position was closed in May 2003, but
          as of May 2004 a final decision had still not been made on a permanent OCHP
          Director.

OCHP Named EPA Lead for Aging Initiative

          The United States is undergoing a demographic transformation with respect to the
          elderly. By 2030, the U.S. population over the age of 65 is expected to double to
          an estimated 70 million. As people age they become more susceptible to
          environmental hazards, such as: microorganisms in drinking water; second-hand
          smoke and carbon monoxide in indoor air pollutants; ozone and particulate matter
          in ambient air; volatile organic compounds; radon; temperature extremes; and
          such neurotoxins as lead and mercury. Additionally, as people age, they have
          accumulated a lifetime of exposures, and their immune systems diminish.

          In October 2002, the EPA Administrator announced the EPA Aging Initiative,
          making protecting the health of older persons a new priority of the Agency. The
          goal of the Initiative is that every citizen, community, organization, corporation,
          and particularly the Federal government, including EPA, is encouraged to
          understand the link between the environment and the health of older Americans;
          and take appropriate action to identify and reduce environmental threats to protect
          the health of older Americans.



                                          10
                 OCHP was named the Aging Initiative’s lead and revised its mission statement,
                 accordingly. Children and the elderly are both considered susceptible
                 populations. To ensure adequate coverage under this new area, OCHP
                 reorganized, adding a fourth team (“Aging Initiative Team”) and hired one
                 additional full-time staff member. OCHP officials said they received $300,000
                 from the Agency in their 2003 operating plan/budget to fund the Aging Initiative.
                 However, to ensure adequate coverage within this new area, OCHP estimated that
                 it spent an additional $300,000 from its children’s environmental health annual
                 budget toward the Aging Initiative. Further, these estimates did not take into
                 consideration the time spent by OCHP officials other than the one hired for the
                 Aging Initiative.

                 A May 2003 report issued by the Children’s Environmental Health Network, a
                 national children’s environmental health advocate, raised concerns about OCHP’s
                 mission being “severely compromised” due to such decisions as placing the
                 Aging Initiative within OCHP without sufficient additional resources being
                 provided. The report, “Are Children Left Behind?: Children’s Environmental
                 Health Under the Bush Administration,” noted that by doing this EPA was doing
                 a disservice to both the children and the Aging Initiative. Additionally, the
                 Children’s Health Protection Advisory Committee2 raised concerns that
                 expanding the mission of OCHP to include the aging would diminish OCHP’s
                 effectiveness with children’s environmental health.

                 The decision to make OCHP the lead of the Aging Initiative would greatly
                 increase OCHP’s workload and areas of responsibility. Therefore, EPA needs to
                 carefully consider whether making the same office responsible for protecting the
                 environmental health of both the children and the aging is appropriate and, if so,
                 provide it with additional resources to adequately protect both populations.

                 Also, we noted that the term “aging” had not clearly been defined by OCHP.
                 According to OCHP, different Federal agencies have different age parameters in
                 defining “aging.” An unclear definition could cause OCHP problems in
                 implementing programs.




        2
          The Children's Health Protection Advisory Committee is a body of researchers, academicians, health care
providers, environmentalists, children's advocates, professionals, government employees, and members of the public
who advise EPA on regulations, research, and communication issues relevant to children.

                                                        11
Recommendations

                 We recommend that the EPA Acting Deputy Administrator:

                 2-1.    Develop a coordinated strategy that ties specific measures, milestones, and
                         targets toward meeting the Agency’s National Agenda to Protect
                         Children’s Health from Environmental Threats.

                 2-2.    Reevaluate the role of OCHP and redefine its function and areas of
                         responsibility within the Agency.

                 2-3.    Establish an official children’s health contact within each program office.

                 2-4.    Expedite the decision making process in appointing a Director for the
                         OCHP.

                 2-5.    Ensure that OCHP is given resources to effectively implement the Aging
                         Initiative.

                 2-6.    Clearly define the parameters for “Aging” as part of the Aging Initiative.

Agency Response and OIG Evaluation

                 The Acting Deputy Administrator concurred with all recommendations and
                 positions except Recommendation 2.6, which related to the aging parameters
                 under the Aging Initiative. According to the Acting Deputy Administrator, it is
                 not beneficial to define parameters for aging. The response further added that it is
                 important to recognize that aging is a process that is not tied to a specific age.
                 We recognize that while aging is a process, we believe it is important for the lead
                 of the Aging Initiative to establish a clear and concise definition of what
                 constitutes aging under the Aging Initiative to ensure consistency within EPA
                 program offices. The Older Americans Act of 19653, for example, defines “older
                 individuals” as individuals who are 60 years of age or older. Recognizing that the
                 National Agenda for the Aging will consist of three parts, including identifying
                 research gaps in environmental health and encouraging older adults to volunteer
                 to address similar concerns, it would be prudent for EPA to clearly define the
                 target audience.

                 In response to our other recommendations, the Agency agreed to explore other
                 options for improving coordination within the Agency and ways to better measure
                 their progress and results. The Agency cited as an example a plan to work with
                 the Office of the Chief Financial Officer to explore options to improve the way


        3
         Older Americans Act of 1965, Public Law 89-73, was enacted to provide assistance in the development of
new or improved programs to help older persons.

                                                      12
children’s health is coordinated and measured in the Agency’s strategic and
annual budget planning process. Additionally, the Agency agreed to reiterate the
role of OCHP to EPA senior managers to ensure OCHP can be an effective
participant with EPA’s programs that affect children.

Although the Agency concurred with most of the recommendations and positions
of the report, the Agency expressed a concern that the OIG did not recognize the
role of the OCHP and the accomplishments that OCHP and EPA have made to
protect the Nation’s children. They recognized that there is always room for
improvement, but they believe the focus of the OIG report did not recognize the
substantial and significant progress that the EPA and OCHP – working with
internal and external collaborators – have made in a relatively short period of
time. According to the response, the Agency has made significant progress in
developing science related to children’s health and regulatory policy, as well as
developing tools and information for communicating children’s health issues.
In addition, the response added that the Agency has taken significant actions in
recent years to protect children’s health from pollution in the air, water and land.
A snapshot of some of the examples of EPA’s accomplishments were included in
the response and a more detailed summary of accomplishments was provided as
an attachment.

As cited in the body of our report, we recognize that many of EPA’s program and
regional offices have projects that focused on children’s environmental health
protection. However, the role OCHP had in developing and implementing these
programs is not clear. OCHP identified several EPA accomplishments in their
response memorandum, but support was not provided to illustrate the role of
OCHP in these projects. OCHP also provided an attachment in their response that
related to overall EPA accomplishments and, again, it is not clear as to the role
and impact of OCHP on these projects. We recognize that OCHP has taken
actions in several areas related to children’s health protection, but OCHP needs to
focus on results rather than activity.

The Acting Deputy Administrator expressed concern regarding the title of the
report. Consequently, we modified to title to more clearly articulate the findings
in the report. Clarification was also provided for a date referenced in the report
pertaining to the lack of a permanent director. This date was modified based on
information provided by OCHP.




                                 13
14
                                Chapter 3
   Strengths, Weaknesses in OCHP Implementation
                   Efforts Noted
         We found that OCHP has no formal mechanism in place to ensure performance
         results or assess relationships between program costs, activities, and results.
         OCHP has a strategic planning process that includes an annual office planning
         meeting followed by a mid-year meeting to assess the status on the current year’s
         plan and to begin consideration of potential focus areas for the following year.
         However, despite these meetings, there is no formal tracking to ensure that goals
         are met. More specifically, data and information systems are not available to
         measure, analyze, and demonstrate overall performance specific to the National
         Agenda on a continuing basis.

Improved Focus Needed

         To evaluate OCHP’s efforts in integrating children’s health protection throughout
         the Agency’s operations, we used the OIG’s “Assessing Organizational Systems:
         A User’s Guide,” issued in November 2002. This tool was designed to assess
         organizational “Systems” by providing managers with seven key areas that
         establish the foundation for an organization or program to be successfully
         implemented. We assessed OCHP’s planning process and operations in
         implementing children’s health protection against these key areas.

         While OCHP has taken actions in different areas related to children’s health
         protection, OCHP needs to focus on results. OCHP should have a methodology in
         place to set priorities to ensure resources are being allocated to those problems that
         pose the greatest environmental risks to children, and needs to efficiently measure
         those results to ensure sufficient strides are being made in improving children’s
         environmental health. OCHP’s broad overall mission, limited resources, and
         unclear role contributed to the shortcomings found.

         We believe an OCHP annual internal review of results or outcomes versus planned
         activities would be beneficial. This should become an annual assessment or
         review of OCHP’s work. The results should be incorporated into OCHP’s annual
         strategic planning meeting, as well as in its mid-year meeting. This review should
         verify performance results and analyze more accurately the relationship among
         costs, activities, and results.

         The results of our evaluation for each of the seven key areas are in Table 3.1.




                                           15
                                 Table 3.1: Seven Vital Areas

  Seven Vital
                       Strengths Identified                                 Inadequacies
    Areas

Strategic         OCHP developed an action                No clear linkage between resources and planned
Planning          plan                                    activities

                                                          The action plan does not describe how resources,
                                                          activities, and outputs are linked to achieve the
                                                          objectives and environmental results


Leadership        OCHP has defined a vision and           Leadership has not ensured understanding
                  mission statement                       throughout the Agency of the vision and mission
                                                          of OCHP

                                                          OCHP has not had a permanent Director since
                                                          April 2002

Customer/         Customer/stakeholders and               There are no formal contacts within EPA program
Stakeholder       partners have been identified           offices
and Market
Focus             Monthly meetings are held with
                  Regional Children’s Health
                  Coordinators

                  OCHP collaborates with
                  partners on various projects

                  OCHP held public listening
                  sessions on the Aging Initiative

Information and   OCHP produces episodic                  Data and information systems are not available to
Analysis          summary products that illustrate        measure, analyze, and demonstrate overall
                  Agency activities in children’s         performance specific to National Agenda on a
                  health                                  continuing basis

                  OCHP developed a book on                OCHP’s objectives and goals are not specific and
                  trend analysis                          clearly measurable

Human Capital     Staff is divided into speciality        Recent Aging Initiative was added to OCHP’s
                  area teams                              responsibilities, which adds additional duties to
                                                          existing staff

Process           OCHP maintains a website                There is no documentation or explanation of
Management                                                deviation from action plan

                                                          There is no formal followup to ensure
                                                          completeness of projects

Performance       Mid-year planning meetings are          OCHP does not evaluate products to ensure
Results           conducted to discuss projects’          usefulness
                  status




                                                     16
Recommendations

         We recommend that the Office of Children’s Health Protection:

         3-1.     Make improvements to its annual planning process to include, at a
                  minimum:

                  a.   more complete and measurable details on how planned activities are
                       projected to be completed, identifying quantifiable attainable goals
                       and targets;

                  b.   a plan of what potential resources, either internally within OCHP or
                       externally within EPA or other stakeholders, are to be used;

                  c.   projected allocations of these resources and what the end products
                       will be; and

                  d.   a methodology to set priorities to ensure resources are being
                       allocated to those problems that pose the greatest environmental
                       risks to children, recognizing that OCHP has limited resources.

         3-2.    Perform an annual internal review of results or outcomes versus planned
                 activities.

         3-3.    Conduct periodic meetings with program office officials to discuss
                 upcoming children’s health projects, coordination efforts, and future areas
                 of focus.

Agency Response and OIG Evaluation

         OCHP agreed with our recommendations and positions outlined in this chapter.
         In response to our recommendations, OCHP is planning to develop quantifiable
         measures and develop long term objectives and strategic targets. Additionally, in
         future years, they plan to incorporate a review and analysis of the strategic targets
         and projects to determine if the results and outcomes identified were met.




                                           17
18
                                                                                            Appendix A

                                  Auditee’s Response
MEMORANDUM

SUBJECT:        Draft Evaluation Report: Effectiveness of the Office of Children’s Health Protection
                Cannot Be Determined

TO:             Kwai Chan
                Assistant Inspector General for Program Evaluation

We welcome the OIG report and concur with some of the observations and recommendations. However,
we are concerned that the OIG did not appear to recognize the role of the Office of Children’s Health
Protection (OCHP) and the enormous accomplishments that OCHP and EPA have made to protect the
Nation’s children. We appreciate and highly value having an independent, unbiased review and evaluation
of our efforts in this area. Protecting children from environmental hazards remains a very high priority for
EPA. We also continue to view the role of the Office of Children’s Health Protection (OCHP) as critical
to the Agency’s perseverance in moving forward on children’s environmental health issues. We believe
that it is very important to understand the role of OCHP within the Agency. OCHP was established to
raise awareness and facilitate change in the way EPA does business so that protecting children’s health
becomes an integral part of all of the Agency’s work from research to regulatory activities. While OCHP
does not conduct research or set standards, they do work with Agency offices in those areas to insure that
risks to children are considered. They are also responsible for working outside the Agency to increase
efforts focused on children’s environmental health (i.e., with other federal agencies, States, healthcare
providers, and the private sector).

                 We recognize the difficulty in assessing the full scope of work for any program being
evaluated. As you point out in the report, implementing the National Agenda to Protect Children From
Environmental Health Threats is the responsibility of the Agency as whole, not just OCHP. While we
recognize that there is always room for improvement, we believe that the focus of the IG report does not
recognize the substantial and significant progress that the EPA and OCHP – working with internal and
external collaborators – have made in a relatively short period of time.

                 We do agree with the OIG that we do not yet have the tools to quantitatively evaluate
environmental health results of the program, a finding not inconsistent with many of our environmental
programs as we all seek improvement in our ability to measure environmental and public health outcomes.
We are committed to doing what is needed to measure the results of all of EPA’s programs. However, we
think that the report does not adequately recognize the qualitative advances made by the Agency on
children’s health and presents an unbalanced picture of the overall value of the program.

                 The Agency has made significant progress in developing science related to children’s
health and regulatory policy, as well as developing tools and information for communicating children’s
health issues. The Agency has taken significant actions in recent years to protect children’s health from
pollution in the air, water and land.

                A snapshot of some of the examples of EPA’s accomplishments include: the phaseout of
chromated copper arsenate (CCA) which will significantly lower potential risks to children; establishment
of Centers of Excellence in Children’s Environmental Health Research dedicated solely to the study of


                                                    19
children's environmental health; cancellation or use restriction of pesticides affecting children’s health
including methyl parathion, azinphos methyl, chlorpyrifos, and diazinon; the first-ever collaboration of
State environmental and health officials to reduce childhood asthma; the National Children’s Study, a
longitudinal cohort study to investigate the relationship of the environment to children’s health; the diesel
rule which will reduce emissions of NOx by 2.6 million tons each year when the program is fully
implemented; the Toxic Release Inventory (TRI) lead standard which requires more reporting of
environmental releases of lead; the off-road diesel rule that will reduce emissions by more than 90 percent;
the Clean School Bus U.S.A. initiative which will reduce both children's exposure to diesel exhaust and the
amount of air pollution created by diesel school buses; and the Voluntary Children’s Chemical Evaluation
Program which will evaluate 22 chemicals for potential risks to children. In addition, efforts with the
States, healthcare providers, and the international community have resulted in significant actions on
children’s environmental health where there was virtually no activity prior to EPA’s involvement. A more
detailed summary of accomplishments is in attachment 2. We hope that you will consider recognizing
these accomplishments in your final report to present a more balanced evaluation of the program.

                 Further, we believe that the current title of the report does not accurately reflect the actual
findings of the report. We believe that “ Improvements Are Needed in Efforts to Measure the
Effectiveness of EPA’s Efforts to Protect Children” or “Effectiveness of the Office of Children’s Health
Protection Cannot Yet Be Quantitatively Determined” would better describe the reports findings.

                Please refer to attachment 1 for a detailed response to the recommendations. In addition to
the summary of OCHP accomplishments mentioned above (attachment 2), a September 2003 report
“Evaluation of EPA Activities Related to Children’s Health Protection” is also attached for your
consideration in finalizing the report.


                                                                    Stephen L. Johnson
                                                                    Acting Deputy Administrator
c:               Nikki Tinsley
                 Jeffrey Harris
                 Jerri Dorsey
                 Laurie Adams
                 Tom Gibson
                 Jeff Holmstead
                 Paul Gilman
                 Marianne Horinko
                 Benjamin Grumbles
                 Dona DeLeon
                 Natalie Gochnour
                 Rich McKeown
                 William Sanders
                 Joanne Rodman
                 Elizabeth Blackburn
Attachments




                                                      20
OCHP’s Response to the IG Report:
Effectiveness of the Office of Children’s Health Protection Cannot Be Determined


GENERAL COMMENTS AND CORRECTIONS:

•               We believe that the report does not adequately credit the great strides that the Agency has
                made in the area of Children’s Environmental Health Protection. For example, prior to the
                efforts of OCHP and other EPA programs there was little or no activity on children’s
                environmental health in the States or in the health care provider community. Now we
                have significant programs in both areas. The same is true in the area of science and
                economics. We refer you to the September 2003 report “Evaluation of EPA Activities
                Related to Children’s Health Protection”(attached), which evaluated EPA’s progress in
                implementing the EPA National Agenda to Protect Children From Environmental Health
                Threats. We have also attached an appendix to this response which highlights the
                children’s environmental health (CEH) accomplishments over the last several years. We
                hope that the OIG will be able to use these documents to include examples of the
                significant progress that has been made in the final report.

•               We believe that the current title of the report does not accurately reflect the actual findings
                of the report. We believe that “Improvements Are Needed in Efforts to Measure the
                Effectiveness of EPA’s Efforts to Protect Children” or “Effectiveness of the Office of
                Children’s Health Protection Cannot Yet Be Quantitatively Determined” would better
                describe the reports findings.

•               The report states that the office has been without a permanent director since April 2001-
                nearly 3 years. The correct date is April 2002 - nearly 2 years.

RESPONSE TO RECOMMENDATIONS FOR THE EPA ACTING DEPUTY ADMINISTRATOR:

2-1. Develop a coordinated strategy that ties specific measures, milestones, and targets toward meeting
the Agency’s National Agenda to Protect Children’s Health from Environmental Threats.

We agree that it is important that EPA efforts focus on children’s environmental health be coordinated and
that we need to do a better job measuring results in this area. An attempt to do this is reflected in the
September 2003 report “Evaluation of EPA Activities Related to Children’s Health Protection”.
We recognize that, while useful, that report fell short of quantitatively measuring health outcomes, but it
did look at progress made related to the National Agenda. OCHP and the Deputy Administrator will
explore other options for improving coordination in the Agency and ways to better measure our progress
and results. For example we will work with the Office of the Chief Financial Officer to explore options to
improve the way children’s health is coordinated and measured in the Agency’s strategic and annual
budget planning process.

2-2. Reevaluate the role of OCHP and redefine its function and areas of responsibility within the Agency

We agree with this recommendation, with modification.

While OCHP’s mandate is to facilitate the implementation of the National Agenda to Protect Children’s
Health from Environmental Threats, it was never intended that the office would have responsibility to
implement most areas in the National Agenda. For example, although OCHP is an active voice for


                                                     21
children’s health in the Agency standards and regulation development process, the office does not develop
standards. Developing standards is the responsibility of the program offices. Protecting children from
environmental hazards remains a very high priority for EPA and the role of OCHP is critical to the
Agency’s continuing progress. OCHP was established to raise awareness and facilitate change both inside
and outside EPA. With support from the Agency’s leadership, they have been tasked with raising
awareness and facilitating change in the way EPA does business so that protecting children’s health
becomes an integral part of all of the Agency’s work from research to regulatory activities. While OCHP
does not conduct research or set standards, they do work with Agency offices in those areas to insure that
risks to children are considered. They are also responsible for working outside the Agency to increase
efforts focused on children’s environmental health (i.e., with other federal agencies, States, healthcare
providers, and the private sector). EPA leadership will reiterate the role of OCHP to EPA senior managers
so that OCHP can continue to be an effective participant in all of the Agency’s programs that affect
children.

2-3: Establish an official children’s health contact within each program office.

We agree with this recommendation.

We believe it is very important to have a management-designated CEH contact in each program office to
facilitate our collaborative efforts implementing the National Agenda and other issues relating to CEH.
Many programs have designated CEH contacts already, and OCHP currently works closely with these
contacts throughout the Agency. OCHP has been very effective at leveraging resources within the Agency
to ensure that the directives of the National Agenda are met and has drawn upon ongoing efforts
throughout EPA to develop collaborative relationships with regional and program offices.

OCHP and the DA are exploring ways to assure that the current CEH contacts represent their offices and
ways to increase management involvement in CEH throughout the Agency.

2-4: Expedite the decision making process in appointing a Director for OCHP.

We agree with this recommendation.

The Agency is in the process of recruiting nationally for a permanent director. In the interim an SES level
manager, the Deputy Assistant Administrator for Prevention, Pesticides and Toxic Substances, has been
appointed as Acting Director for OCHP. He has extensive experience with children’s issues both in Region
5, where he dealt with the impact of lead poisoning on minority children in the Midwest, and in
Headquarters where he dealt with implementation of the lead program, including development of
regulations to put into place a protective infrastructure for kids.


2-5: Provide a formal decision on what office should be given the lead for implementing the Aging
Initiative, and ensure that whichever office is designated is given resources to effectively implement the
program.

We agree with this recommendation with modification.

The Agency has made the decision to have OCHP take the lead for the Aging Initiative. Recognizing
OCHP’s experience and success in working within EPA as well as with outside stakeholders on issues
relating to susceptible populations, we believe that they are the appropriate office to manage the initiative.
We also agree that, within budget constraints, appropriate resources are needed to implement the initiative.
It is important to acknowledge that the Aging Initiative is still at the early vetting stage. More discussion

                                                     22
and deliberation is required with outside stakeholders and with EPA programs to determine whether or not
additional work in this area– beyond existing efforts in science, outreach and communications– might be a
beneficial and productive use of agency resources.

2-6: Clearly define the parameters for “aging” as part of the Aging Initiative.

We disagree with this recommendation.

It is not beneficial to define parameters for aging. It is important to recognize that aging is a process that is
not tied to a specific age. EPA’s Aging Initiative was established to protect the environmental health of
older persons, independent of specific chronological age. For example, outreach and educational efforts are
targeted to older people with chronic conditions that can be exacerbated by the environment. This
approach is consistent with professionals working in this field.

The aging population in the United States is a heterogeneous group reflecting a broad diversity in health
status, behavioral patterns, social and cultural influences and environmental conditions.[U.S. Census, 65+
in the United States (1996)].

As we age, we may become more susceptible to environmental hazards. Aging is a natural progressive
decline in organ function and compensatory reserves, accompanied by a reduced capacity to detoxify and
eliminate toxicants. Health effects resulting from a lifetime of environmental or occupational exposures to
persistent agents may also manifest as one grows older [National Academy of Sciences Workshop on the
“Differential Susceptibility of Older Persons to Environmental Hazards,” December 2002].

Understanding the biology underlying differing age-related responses can inform a scientific rationale for
decisions on how to appropriately incorporate the differential sensitivity of aging adults into environmental
risk assessment, decisions and actions.

RESPONSE TO RECOMMENDATIONS TO THE OFFICE OF CHILDREN’S HEALTH PROTECTION:

3-1: Make improvements to its annual planning process to include, at a minimum:

        1.1      More complete and measurable details on how planned activities are projected to be
                 completed, identifying quantifiable attainable goals and targets;
        1.2      A plan of what potential resources, either internally within OCHP or externally within
                 EPA or other stakeholders, are to be used;
        1.3      Projected allocations of these resources and what the end products will be; and
        1.4      A methodology to set priorities to ensure resources are being allocated to those problems
                 that pose the greatest environmental risks to children, recognizing that OCHP has limited
                 resources.

We agree with this recommendation.

OCHP is committed to continuing to make improvements to ensure that the directives of the national
Agenda are met. As pointed out in the IG report, OCHP has a vision, mission and goals to guide the
office’s decision-making. OCHP supports and facilitates Agency efforts in three primary areas: 1)
regulations and standards, 2) science and risk assessment, and 3) public awareness, community-based
programs, and education. In addition, OCHP develops an action plan annually based on the goals and


                                                       23
identifying areas where there appear to be gaps and needs. These annual decisions are revisited several
times throughout the year.

•       In September of FY 2003, OCHP began to reevaluate its goals and to develop long-term
        objectives, sub-objectives and strategic targets to assure that we can move forward in achieving
        our goals.

•       OCHP has set aside funds in the office’s FY 2004 budget and has acquired a knowledgeable
        detailee for six months that will spend full time managing a project to establish quantifiable
        measures for the office.

•       The results of both activities above will be used to inform decisions and set priorities at OCHP’s
        annual planning meeting.

3-2: Perform an annual internal review of results or outcomes versus planned activities.

We agree with this recommendation

•       In future years OCHP’s annual planning process will include a review and analysis of the strategic
        targets and projects to determine if the results and outcomes identified have been met, and if not,
        why not, lessons learned, and whether additional efforts are required to meet them.

•       All proposed projects will include clearly defined expected results and the methodology that will
        be used to measure the results.

3-3: Conduct periodic meetings with the program office officials to discuss upcoming children’s health
       projects, coordination efforts, and future areas of focus.

We agree with this recommendation.

•       OCHP intends, with the Deputy Administrator’s help, to make the relationship with the program
        offices more “official” at a management level. However, as mentioned under recommendation 2-3,
        OCHP has consistently worked closely with dedicated CEH contacts in all of the Agency program
        offices and regions, and could not have the same level of success without their assistance.




                                                     24
                                                                                 Appendix B

                     Offices Visited and Contacted

EPA

      Office of Air and Radiation: Indoor Environments Division

      Office of Prevention, Pesticides, and Toxic Substances:
             Office of Science Coordination and Policy
             Office of Pollution Prevention and Toxics
             Office of Pesticide Programs

      Office of Solid Waste and Emergency Response

      Office of Water

      Office of Children’s Health Protection

      Office of the Chief Financial Officer: Office of Planning and Budget Analysis

      Office of Research and Development

      Regional Children’s Environmental Health Coordinators (Regions 1 - 10)


Other Federal Agencies

      Agency for Toxic Substances and Disease Registry

      National Institute of Environmental Health Sciences


Outside Stakeholders

      Children’s Environmental Health Network

      National Resources Defense Council




                                               25
26
                                                                              Appendix C



                                        Distribution


Acting Deputy Administrator
Acting Director, Office of Children’s Health Protection
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Children’s Health Protection
Acting Associate Administrator, Office of Public Affairs (1101A)
Acting Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Acting Director, Office of Regional Operations
Assistant Administrator, Office of Research and Development
Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Water
Audit Liaison, Office of the Administrator
Audit Followup Coordinator, Office of Air and Radiation
Audit Followup Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Research and Development
Inspector General (2410)




                                             27
